in excess of quarterly needs. Consequently, we do not recommend recovery of the
overpayments; however, we recommend that CPB improve its procedures for reviewing
payment requests to eliminate this issue in the future.

We performed this audit based on a referral made to our office. We performed our audit
in accordance with Government Auditing Standards for financial audits. Our Scope and
Methodology is discussed in Exhibit A.

In response to the draft report, PIC management agreed with our findings and stated
that it takes responsibility for the issues that were brought up in the report and assured
CPB that all of the funds received were used in accordance with PIC’s mission. Further,
PIC requested CPB to issue a no-cost extension to amend the terms of the FY 2010
grant instead of requiring PIC to repay the funds committed after the grant term expired.
PIC’s written response to the draft report is summarized after each finding and its
complete response is included in Exhibit G. Our findings and recommendations did not
change based on PIC’s response to the draft report; however we did clarify
Recommendations 1a and 1b.

The findings and recommendations contained in this report do not necessarily represent
CPB management’s final position on these matters. CPB management will make final
management decisions on the recommendations in this report in accordance with CPB’s
audit resolution procedures.

Based on PIC’s response, we consider Recommendations 1a-1b, 2a-2c, 3b, and 5a
unresolved pending CPB’s management decisions. Recommendations 3a, 3c, and 4a-
4e are resolved but open pending CPB’s acceptance of PIC’s planned corrective
actions. Recommendation 5b is resolved and closed.


                                   BACKGROUND

PIC’s records indicate that it was incorporated in the State of Hawaii in 1991 to promote
the development of culturally diverse programming for public broadcasting by and about
indigenous Pacific Islanders, including the people and cultures from Hawaii, Guam, the
Northern Marianas Islands, and American Samoa. These same documents explain that
PIC is a member of the National Minority Consortia (NMC), which collectively address
the need for national public broadcast programming that reflects America’s growing
ethnic and cultural diversity. Other Consortia members serve the Asian American,
Latino, African American, and Native American populations. Primary funding for PIC
and the other Consortia members is provided through annual grants from CPB. PIC’s
FY 2012 annual financial statements reported total expenses of $1,680,300, and total
revenues of $1,725,550 that included $1,658,900 of CPB grant revenues.

The PIC’s mission statement explains that it supports, advances, and develops the
Pacific Island media content and talent that results in a deeper understanding of the
history, culture, and contemporary challenges of the Pacific Islands. In keeping with its


                                            2
mission, PIC helps the stories of the Pacific reach national audiences through funding
support for production, training and education, broadcast services, and community
outreach.

The primary work of PIC is to disseminate funds for the creation and production of
quality programming by and about Pacific Islanders, and to develop and operate an
efficient system to market and distribute these programs to broadcast, non-broadcast,
and educational entities. PIC also educates and informs the community-at-large of
Pacific Islander programming through the gathering and dissemination of funds,
including research grants, and the establishment of a directory of existing and new
Pacific Islanders in media.

According to PIC records, in the past 10 years, PIC has awarded approximately $5 million
in grants to program producers for television productions that resulted in approximately 65
hours of programming for national public television. During this period PIC has screened
films at over 100 community events worldwide, with over 50,000 people in attendance,
and provided training to more than 350 emerging filmmakers. Since 1991, PIC has used
CPB grants to fund independent productions in order to provide independent producers
increased access to the public television system and bring innovative programming to the
American people. The most recent grants CPB awarded to PIC included separate
operations and production components, as follows:

                            Operations       Production
            Fiscal Year       Grant            Grant             FY Total

               2010           $555,000        $954,545          $1,509,545
               2011            717,000         783,000           1,500,000
               2012            686,980         822,565           1,509,545
              Totals        $1,958,980      $2,560,110          $4,519,090

CPB provided operations and production grants so that PIC could fund the development,
production, acquisition, and distribution of educational and cultural television and web-
based programming that addresses issues of particular interest to Pacific Islanders for
dissemination to the public. The operations funds were to be used for administrative and
capital expenses such as personnel, professional services, insurance, office expenses,
travel and equipment. The bulk of the productions funds are to be used for productions,
i.e., grants awarded to independent producers. The remainder was budgeted for talent
development, audience development, program administration, and national broadcast
activities that included marketing, promotion, and carriage services.

According to CPB’s grant agreement terms, the operations funds must be committed by
PIC within the fiscal year of the grant award; however, the production grant funds are
available to PIC for longer periods. The FY 2010 production funds must have been
committed by September 30, 2011, while the FY 2011 and 2012 production funds are
available to be committed by PIC until September 30, 2013 and September 30, 2014,
respectively.


                                            3
During our audit period, October 1, 2009 through September 30, 2012, CPB paid PIC a
total of $4,325,307. Of this amount, $212,230 was paid against the FY 2009 grants.
The balance of $4,113,077 was paid towards the FY 2010-2012 grants as presented in
Exhibit B. Interim and final financial reports for these grant agreements are presented
in Exhibits C-F.


                               RESULTS OF REVIEW
We have audited the accompanying PIC financial reports of revenues and expenses
(Exhibits C-F) for the three-year period ending September 30, 2012. These reports are
the responsibility of PIC management. Our responsibility is to express an opinion on
these financial reports based on our audit.

We conducted our audit in accordance with Government Auditing Standards for
financial audits and auditing standards generally accepted in the United States. Those
standards require that we plan and perform the audit to obtain reasonable assurance
about whether the financial reports are free of material misstatement. An audit includes
examining, on a test basis, evidence supporting the amounts and disclosures in the
financial reports to determine compliance with the grant agreement requirements. An
audit also includes assessing the accounting principles used and significant estimates
made by management, as well as evaluating the overall presentation of the financial
reports. We believe that our audit provides a reasonable basis for our opinion.

The accompanying PIC financial reports were prepared for the purpose of complying
with the grant agreements between CPB and PIC, as described in Attachments B and C
to these grant agreements, and are not intended to be a complete presentation of PIC’s
revenues and expenses.

Based upon our audit we found:

   •   questioned costs totaling $568,521 ($547,327 for incurring program costs after
       the grant period had expired, $17,846 in unused program producer funds, and
       $3,348 in reporting operating costs in excess of the amounts recorded in PIC’s
       accounting records);
   •   claimed reimbursements from CPB in excess of quarterly needs resulting in a
       surplus cash on hand balance of $715,008 as of September 30, 2012;
   •   funds put to better use estimated at $114,293 because CPB’s share of ancillary
       income and interest earnings were not reported to CPB; and
   •   funds put to better use totaling of $24,117 for unused FY 2012 operating funds.

In our opinion, because of the effects of the matters discussed in the preceding
paragraph, the financial reports referred to above do not present fairly the results of PIC
activities in conformity with CPB grant agreement terms for the three-year period ending
September 30, 2012.




                                             4
                          FINDINGS AND RECOMMENDATIONS

Complying with Grant Agreement Term Period

Our review of PIC’s expenses claimed under the FY 2010 production grant disclosed
that $547,327 was committed after the grant term had expired on September 30, 2011.
Of this amount, $436,355 was used for contracts awarded to producers and $110,972
was expended on other production expenses associated with programming. As a
result, we have questioned $547,327 for costs incurred after the grant period.

The FY 2010 production grant agreement specifies that:

        The term of this agreement shall commence on October 1, 2009 and shall
        end on September 30, 2012. Thereafter, at CPB’s option, the term may be
        extended for additional periods under the same terms and conditions as
        provided herein, or any amended terms and conditions agreed to by the
        parties. Notwithstanding anything to the contrary contained herein, no
        production funding shall be provided to PIC hereunder that is not
        committed by PIC to a third party within the period October 1, 2009 through
        September 30, 2011.

    Committing Funds to Producers

This grant provided up to $954,545 for production expenses, of which $727,670 was to
be used for contracts with producers. Our review of the productions funded under this
agreement disclosed that PIC committed $436,355 for 13 productions after the term of
the grant had expired on September 30, 2011, and that CPB did not extend the grant
term past this date. Details follow.
                                                                      Date Contract
                                                          Amount      Signed with
 Production Title                                        Committed     Producer
 Bye-bye Charlie?                                         $50,000               *
 Animated Adventures of Judo Girl                          50,000        6/30/12
 Standing on Sacred Ground                                 50,000        9/25/12
 Tokyo Hula                                                50,000         7/9/12
 America by the Numbers: Clarkston, Georgia                20,000       12/19/11
 E Haku Inoa: To Weave a Name                              50,000        3/12/12
 Tonga: The Last Place on Earth                            50,000         3/5/12
 Hawai'i Sons of the Civil War                             15,000        3/20/12
 Kumu Hina                                                 15,000        4/27/12
 Ku Kanaka/Stand Tall                                      15,000        4/20/12
 Need to Know                                              12,809        6/13/12
 The Illness and the Odyssey                               50,000        1/18/13
 One Voice                                                  8,546              **
                      Total                              $436,355
* No signed contract executed.
**Existing 2008 contract not amended to include this amount.


                                                        5
PIC personnel explained that its former management instructed them to commit the FY
2011 production grants funds before committing the FY 2010 grant funds, because CPB
believed PIC needed to establish a need for the 2011 funds. Our review of the PIC’s
Board of Directors meeting minutes confirmed an internal discussion regarding this
issue. These minutes state that since PIC had not requested any FY 2011 funds in the
first quarter of the fiscal year CPB personnel1 recommended that PIC request FY 2011
funds to show need. At that time, October 2010 through December 2010, a substantial
amount of the FY 2010 funds were still uncommitted.

Further, because PIC believed it was committing FY 2010 funds when its Board
approved the projects for funding, not when PIC recognized the expenditures by signing
a grant agreement with the producers. Without an executed agreement neither party
was bound to the production. As a result, in accordance with generally accepting
accounting principles, the grant funds were not committed until the producer and the
PIC representative signed the grant agreement.

    Committing Funds for Production Related Expenses

The FY 2010 productions grant also provided PIC $226,875 for expenses associated
with programming such as national broadcast, talent and audience development, as
well as program administration. More specifically, these expenses were for items that
included equipment rentals, events, film festival sponsorships, printing, postage,
advertising, study guides, contest awards, and public relations services.

During FY 2012, PIC expended $127,926 of FY 2010 grant funds for these types of
expenses. However, because of the miscellaneous nature of these expenses, we could
not determine that these expenditures were committed (ordered) before the FY 2010
grant term expired on September 30, 2011. We did note that, $16,954 of the $127,926
was expended in the first quarter of FY 2012 indicating the funds were committed
before the FY 2010 grant funds expired. As a result, we accepted the $16,954 and
questioned $110,972 ($127,926 - $16,954) because this amount was either committed
after the grant term expired or there was no evidence of a commitment prior to
September 30, 2011.

       Recommendations

1) We recommend that CPB officials require PIC to either refund the:

    a) $436,355 of FY 2010 grant funds committed to producers after September 30,
       2011, or amend the grant period to include these amounts.
    b) $110,972 of FY 2010 grant funds used for production related expenses in FY
       2012, or amend the grant period to include these amounts.


1
  Subsequent discussion with CPB personnel did not identify anyone at CPB who had any knowledge of
those instructions. Moreover, CPB personnel could not understand why anyone would advise using the
FY 2011 funds, which expire in September 2013, before the FY 2010 funds that expired in 2011.


                                                 6
       PIC’s Response

PIC’s response to the draft report agreed that it did commit funds to several projects and
did expend funds associated with programming (such as national broadcast, talent and
audience development, and program administration) after the grant term had expired.
PIC provided several exhibits with its response (included in Exhibit G) to show that it
could have used FY 2010 funds before the grant term expired to fund productions, but
instead used other fiscal year funds (i.e., FY 2011) based on the decision made by
former management. The amounts included in Exhibit I to PIC’s response totaled
$431,500 committed for productions, which is slightly less than the $436,355 in FY 2010
funds questioned because the funds were committed after the grant term.

PIC also explained that other expenses paid with FY 2011 funds could have been paid
using FY 2010 funds. These expenses included: $45,602 in Marketing & Promotions;
$39,249 in Talent Development; and $23,000 in Audience Development. This amount
totals $107,851, which is slightly less than the $110,972 questioned in the draft audit
report.

Furthermore, PIC response pointed out that in the last three payment requests PIC
submitted to CPB with its FY 2010 quarterly reports, PIC listed all the projects that were
awarded funds and included a column that indicated the date the project was awarded
funding. Although several projects had award dates after the two-year commitment
term, PIC did not receive any indication from CPB that this violated the grant.

Since the funds were committed or spent on projects that fulfilled the purpose of PIC’s
agreement with CPB, PIC requested a no-cost extension to the term of this agreement
from CPB, which PIC explained is an option CPB can take based on language in the
grant agreement.

       OIG Review and Comments

Based on PIC’s response we consider Recommendation 1a and 1b unresolved pending
CPB’s management decisions on these recommendations. If CPB’s management
decision does not provide a grant period extension to the FY 2010 grant PIC will need to
refund $547,327. With an extension PIC will still need to refund $51,862 ($436,355 -
$431,500 = $4,855 applicable to producer contracts plus $47,007 for other expenses).

In addressing PIC’s response to Recommendation 1a, we acknowledge that the
projects listed in Exhibit I of PIC’s response could have been funded with FY 2010
funds, instead of FY 2011 funds. Because the contracts identified in Exhibit 1 totaling
$431,500 were signed within the term period of the FY 2010 grant (prior to September
30, 2011), these commitments could have been funded with FY 2010 funds. Similarly,
in addressing PIC’s response to Recommendation 1b, we acknowledge the other
expenses totaling $107,851 (i.e., Marketing, Promotion, Talent and Audience
Development) paid in FY 2012 with expired FY 2010 funds could have been paid for




                                             7
with the unexpired FY 20112 funds that were still unspent and available to PIC.

While we acknowledge that the funds expended outside of the grant term were used for
mission related work, this does not relieve PIC of its responsibility for complying with
grant agreement terms as it relates to the timing of expenditures. Grant expiration
terms and budgets are intended to focus CPB funds on the timely completion of
products needed for public television.

However, if CPB decides to extend the grant period through FY 2012, the other
$110,972 production expenses questioned would be reduced to $47,007 and not the
difference of $3,121 between the $110,972 questioned in the draft report and the
$107,851 referenced in PIC’s response. PIC also would need to fully account for when
it spent its FY 2010 Production funding by fiscal year. Additional information provided
by PIC subsequent to its response to the draft report identified $47,007 in expenses
reported to CPB that were either paid with FY 2010 funds in FY 2013 or were not
incurred. If these amounts are substantiated by CPB during audit resolution, PIC will
need to refund $47,007 of the FY 2010 other production expenses plus the difference of
$4,855 in producer expenses per PIC’s Exhibit 1, for a total refund of $51,862.

Obtaining Final Reports from Producers and De-obligating Unused Funds

Our audit found that PIC did not effectively oversee program producers reporting of final
production costs and de-obligate $17,846 of unused funds as required under its grant
agreements with CPB. PIC grant agreements with program producers did not require
that final reports be submitted within 180 days following the initial air date or distribution
date of the last episode. Further, PIC had not established procedures to compare
producers’ final expenditure reports to the producers’ budgeted costs and to seek
reimbursement from producers for the unused amount of the PIC commitment. As a
result, we questioned $17,846 in program production expenses reported to CPB that
should have been de-obligated by PIC and recovered from program producers.

    Submitting Final Reports

Section III paragraph 13d of CPB grant agreements with PIC state that:

       All Programs funded hereunder shall contain a closing out provision within
       a time specified in the production or other agreement with respect to the
       project. The time period for closing out any project that is a Program shall
       in all cases be no later than 180 calendar days following the initial airdate
       or distribution date of the last episode of the season funded Program,
       provided that CPB and PIC agree to discuss and consider in good faith
       extensions of the close out date in the event that exigent circumstances
       arise that prevented closure within the anticipated timeframe. PIC shall
       provide CPB with notification of such close-out and will include language
2
  PIC would have needed to use FY 2011 funds because when these expenses were committed or paid
for in FY 2012 the FY 2010 funds had expired, but the FY 2011 funds were still viable.


                                               8
          in its agreements with Program Producers requiring such Program
          Producers to provide CPB directly with a copy of the Program Producer's
          final financial report.

While PIC’s FYs 2011 and 2012 grant agreements with program producers specified a
term for the grant, i.e., “The agreement shall commence from the date indicated above
and shall continue for 12 months from that date (“Term”) ….,” these agreements did not
include provisions requiring program producers to close out no later than 180 days after
the initial airing. Additionally, these agreements did not include language requiring
producers to provide CPB a copy of the final financial report.

      De-obligating Unused Funds

Our review of program producers’ final reports found that $17,846 in unused grant funds
were being retained by the program producers. Further, PIC took no action to recoup
the unused funds in order to de-obligate these funds and make them available for other
projects, if the grant period had not lapsed. These funds had been reported to CPB as
program production expenses and as a result, we questioned $17,846 in production
expenses.

While PIC personnel received final reports from producers, they were unaware that
when the actual project costs were less than the amount budgeted in the grant
agreement, any unused CPB funds must be returned to PIC. PIC officials also indicated
that rarely were all grant funds not used, but when there were unused grant funds the
excess amount was insignificant and used for other parts of the project.

To demonstrate the need to review producers’ final reports and recoup excess funds,
we reviewed a sample of 11 final reports of completed FY 2009 - 2011 grants. This
review disclosed that 6 of the 11 final reports identified that the projects were completed
under budgeted3. As a result, these producers should have refunded the unused grant
funds to PIC. We have questioned grant funds totaling $17,846, as follows:

                                                                                               Unused
                                                           Percent                   Amount     CPB
                                     Grant      Project    Grant /      Actual        Under     Grant
            Productions             Amount      Budget     Project   Expenditures    Budget    Funds
My King, My Country                  $14,945     $14,945     100%          $12,250    $2,695    $2,695
Paradise Transformed                  15,000      26,550      56%           22,903     3,647     2,060
Need To Know                          50,000      83,160      60%           73,532     9,628     5,789
Tonga: The Last Place on Earth        15,000      15,000     100%           14,922        78        78
Animated Adventures of Judo Girl      15,000      31,313      48%           30,855       458       219
The Calling                          100,000   1,719,000       6%        1,598,590   120,410     7,005
Amount Producers to Repay                                                                      $17,846



3
    My King, My Country and Tonga: The Last Place on Earth were both funded with FY 2009 grant funds.


                                                    9
CPB’s FY 2012, as well as prior year production grant agreements, require PIC to
ensure that all producers receiving CPB grant funds agree that:

      Any program funded hereunder shall be subject to proportional de-
      obligation of funds in the event that the project is completed under
      budget, unless CPB written consent to the contrary is obtained. Any
      funds so de-obligated shall be available to be reinvested by PIC in other
      projects….but unless such funds are committed by PIC to a third party
      within two (2) years of the fiscal year of the CPB grant initially funding
      such program(s), such funds must be returned to CBP.

Similarly, the agreements that PIC executes with its program producer provide that:

      …in the event that the amount of the PIC Commitment paid to Producer
      exceeds producer’s cost in completing the … Services, producer agrees to
      reimburse PIC for the unused amount of the PIC Commitment of the …
      Services.

PIC’s processing of program producers’ Final Financial Reports has not focused on any
unused funds being retained by program producers. During FYs 2009 through 2011,
PIC awarded about 50 grants for research and development and production projects
and we reviewed a sample of 11 of these agreements to identify unused funds.

Discussions with CPB personnel also confirmed that they had not received program
producers’ final financial reports, and without those reports they could not verify when
unused funds needed to be reprogrammed or recouped by CPB. They also indicated that
action was being initiated to obtain final reports from all minority consortia grantees.

      Recommendations

2) We recommend CPB require PIC to:

   a) Initiate action to recoup $17,846 of unused excess funds from producers.
      Producers who do not comply should be disqualified from receiving future CPB
      grant funds. The recouped funds should be reprogrammed for other productions,
      if the grant term has not expired; all other funds should be refunded to CPB.
   b) Include close out provisions in all future grant agreements with program
      producers, as required by the FYs 2011 and 2012 production grant agreements
      executed between PIC and CPB.
   c) Provide CPB with program producers’ final financial reports for all productions
      previously completed during FYs 2010-2012.

      PIC’s Response

PIC’s response recognized that its sub-agreement with independent producers did not
require producers to submit final financial reports to CPB or specify that final reports


                                           10
had to be submitted to PIC within 180 calendar days following the initial airdate. PIC’s
response also explained that since CPB provides PIC with the sub-agreement to give to
independent producers, PIC requested that CPB amend its sub-agreement to include
this language. PIC also suggested that since it is unlikely that producers will provide
CPB directly with copies of their final financial reports, even when contractually
obligated, that it be allowed to submit those reports to CPB instead, which will also
serve as notification to CPB of the close-out of the project.

PIC acknowledged that it was unaware that when the actual project costs were less
than budgeted in the grant agreement, a proportion of the unused funds had to be
returned to PIC. In the majority of cases when a producer came in under-budget, PIC
explained that it was due to budget reductions necessitated by not securing other
funding rather than PIC funding not being used. In these circumstances, PIC believes it
should have amended the agreements to reflect a new PIC-approved budget.

Since the sample tested examined closed projects, PIC requested that it not attempt to
amend these closed contracts to reflect the revised budgets, but to be diligent about
these amendments moving forward. It also suggested that CPB should provide a limit
to when a contract amendment needs to occur or when the funds would need to be
returned (e.g., amounts more than $500) when a producer comes in under-budget.

      OIG Review and Comments

Based on PIC’s response, we consider Recommendation 2a - 2c unresolved pending
CPB’s management decisions on these recommendations. We do not agree that
budget reductions and subsequent amendments to producer agreements should negate
the need to recoup unspent funds from producers. As the total project costs decrease,
we believe the amount of the PIC grant should also decrease proportionally.

PIC Cash Management Practices

Our review of PIC expenditures and amounts claimed for reimbursement disclosed that
PIC consistently claimed reimbursement of CPB funds in excess of the next quarter’s
production expenses during our audit period, contrary to grant requirements. As a
result, PIC maintained cash balances in excess of quarterly needs and accumulated a
cash balance of $715,008 as of September 30, 2012, as shown below.

                                            CPB Grant Funds
                            Fiscal Years       On-hand
                                2010           $356,029
                                2011            190,209
                                2012            168,770
                                Total          $715,008

Further, we found that PIC did not deposit FY 2011-2012 funds in interest bearing
accounts to avoid recordkeeping requirements for reporting interest earned because the


                                           11
interest rate available was very low. Requesting reimbursements from CPB in excess
of quarterly needs deprived CPB from investing the funds until needed, and PIC did not
invest the funds it received to earn interest that could have been applied to future
production needs.

CPB’s grant requirements addressed payment requests. The guidance changed
between the FY 2010 grant and the subsequent FYs 2011-2012 grants, clarifying that
reimbursement requests should be limited to meet only its quarterly estimated payments
to program producers and for other production expenses.

The FY 2010 grant agreement between CPB and PIC provided that “Each Payment
Request Form shall include PIC’s estimate of its cash flow needs (including expense
projections and actual grant commitments) for the next three-month period to cover
its funding of program development, production acquisition, and distribution….” In
effect, this grant agreement allowed PIC to include the full value of commitments
(contracts) with producers in its payment requests. However, the payment request form
also required PIC to limit reimbursement requests to its cash flow needs for the
following quarter.

The FY 2011 and 2012 grant agreement specified that a submitted Payment Request
Form shall include only an estimate of the upcoming quarter’s expected payments to
third parties (program producers) - not the full amount of an executed agreement for the
production. The agreement further clarified that if any monies advanced were not paid
in the following quarter, those monies must be subtracted from the next PIC payment
request. In essence, PIC is required to request reimbursement and maintain cash on-
hand for only production expenses that are to be paid in the following quarter. More
specifically, PIC should have on-hand only enough CPB funds to pay for one quarter’s
production expenses.

   Accumulating Cash Balances

While PIC complied with the spirit of the FY 2010 grant agreement terms when
requesting payments, at the time of our review PIC had a balance of $356,029 in FY
2010 CPB grant funds on hand. Our review of payment requests for this grant
disclosed that almost all of the FY 2010 cash on-hand balance of $356,029 had been in
PIC’s possession for more than six quarters, from June 2011 until December 2012
when we initiated our audit. Similarly, $141,650 of the $190,209 of the FY 2011
balance was on-hand for more than six quarters and the remaining $48,559 was on-
hand between two to five quarters. As of December 2012, the FY 2012 cash balance of
$168,700 was sufficient enough to pay between two to three quarters of its anticipated
payments to producers and vendors.

To further illustrate what we found, the payment requests that PIC submitted for the FY
2011 grant showed the same $100,000 projected payment for the production of
Expedition Wisdom (aka Fixing Juvie Justice) on the seven quarterly requests PIC
made from January 2011 through September 2012. Subsequently, PIC made a



                                           12
$50,000 payment to this producer on November 29, 2012. However, during this time
period PIC had $100,000 of CPB funds on-hand (for over 2 years) and still had the
remaining $50,000 on-hand in December of 2012.

Similarly, a projected expense was shown on seven of the eight quarterly payment
requests for the production of Home Field Advantage (aka Wai ‘Awa‘awa). The
projected payment requested for this production was $100,000 for five quarters and was
then reduced to $30,000 for the remaining two quarterly requests after PIC paid the
producer $70,000 in June of 2012. The $30,000 was still being held by PIC as of
December 2012.

PIC officials did not adhere to grant requirements for requesting payments to meet
future quarterly payments to program producers. As a result, PIC accumulated cash in
excess of its immediate quarterly needs.

Our review of the payment request forms submitted to CPB also found that better CPB
oversight of cash requests could have identified that PIC had excess cash on-hand. For
example, quarterly payment requests showed that PIC requested the same projected
expenses quarter after quarter for specific production projects. PIC made these
requests without adjusting its new requests for funds previously received but still not
paid to program producers. We reviewed the eight quarterly payment requests for the
FY 2011 production grant and found that most of the production expenses shown on
those requests were previously requested and paid by CPB, as shown below:

         Productions Funded                             Quarters PIC Claimed
           by FY 2011 Grant                             as Projected Expense
   Expedition Wisdom (aka Fixing Juvie Justice)                 7
   Jake Skimabukuro: Life on Four Strings                       8
   The Mystery of Easter Island                                 3
   Pacific Heartbeat                                            6
   Home Field Advantage (aka Wai ‘Awa‘awa)                      7

   Earning Interest on Excessive Cash Balances

Our review found that PIC did not prudently manage the excessive cash balances
drawn down from CPB by depositing these funds in interest bearing accounts. The FY
2010 grant agreement allowed PIC to retain the interest received from the on-hand
balances of that year’s grant funds. The FY 2011 and FY 2012 grant agreements
required PIC to report the interest it earned from the on-hand balances of these funds
and to use the interest earned for production expenses.

To avoid this reporting and associated recordkeeping requirement, PIC maintained the
FY 2011 and FY 2012 cash on-hand in a non-interest bearing account. As a result, it
did not earn any interest on these excessive balances. It is beneficial for CPB to ensure
that PIC maintains cash on-hand balances at the levels specified in its grant
agreements and deposits those funds in interest bearing accounts so that funds are


                                                  13
prudently used. It is especially important that CPB monitors PIC’s on-hand balances as
future interest rates rise to historically normal levels.

   CPB Initiated Corrective Actions

As a result of our audit, CPB initiated corrective action to reduce the $715,008
overpayments that PIC claimed contrary to grant requirements when we apprised it of
our findings, while the audit was in process. Consequently, our report did not include a
recommendation to recover the overpayments. However, because additional actions
are needed we recommend that CPB improve its procedures for reviewing payment
requests to eliminate this issue in the future.

       Recommendations

3) We recommend that CPB officials:

   a) Enforce existing grant agreement terms and require PIC to maintain cash-on-
      hand balances at the minimum levels required by the agreements for the
      production grants CPB awarded to PIC.
   b) Improve its procedures for reviewing payment requests to ensure that grantee
      requests comply with grant agreement terms and maintain only cash on-hand
      balances allowed.
   c) Ensure PIC deposits CPB funds in interest bearing accounts to maximize the
      utilization of funds paid to PIC.

       PIC’s Response

PIC’s response agreed that it could have done a better job of predicting projected
expenses for the next quarter, and since the audit review, it has been more realistic in
terms of projected expenses. Consequently, the CPB grant funds on-hand have
decreased drastically.

In terms of reporting procedures, PIC asserts that it did follow the correct procedures for
submitting payment requests. From FY 2010 to FY 2012, PIC submitted payment
request forms that included year-to-date actuals and projected expenses. This amount
was compared to the amount of cash PIC had remaining from the previous quarter,
which was then subtracted from the next PIC payment request. Although payment
requests were submitted for each quarter, PIC never received any indication from CPB
that there was anything wrong with the way PIC was requesting funds or that the
expenses projected for the next quarter were too high.

PIC also agreed to move its FY 2011 and FY 2012 cash on-hand to an interest
bearing account.




                                            14
      OIG Review and Comments

Based on PIC’s response Recommendations 3a and 3c are resolved pending CPB
management acceptance of PIC’s planned actions. Recommendation 3b was directed
to CPB and is unresolved pending receipt of the CPB management decision outlining
how CPB will improve its procedures for reviewing and approving payment requests.

Reporting Ancillary Income and Interest Income

While PIC records indicate that since 1998, it has earned $193,586 of ancillary income
from the sale of DVDs, VHS tapes, broadcast licensing fees, and other income sources,
PIC only reported ancillary income for FY 2007. PIC did not maintain adequate records
to track the amount of ancillary income received by year and related interest earnings.
Additionally, PIC has limited historical documentation to show that it requested
producers to report the date and amount of gross revenues received from the exercise
of their ancillary rights as required by the CPB grant agreements. We also found that
PIC did not calculate, maintain records of, or report to CPB the interest earned on
CPB’s share of ancillary income estimated at $17,500. This amount and the CPB share
of the $193,586 of ancillary income earned since 1998, totaling $96,793, were not
reported to CPB. In total $114,293 ($17,500 + $96,793) should have been reported to
CPB. As a result, we considered this amount as funds put to better use.

Section V, Paragraph 13 of the current production grant, as well as prior production
grants, require each agreement PIC executes with independent producers to establish
that PIC and CPB are entitled to a percentage of the net proceeds from the subsidiary
or ancillary rights earned from the showings of completed programs (“the PIC/CPB
share”). This paragraph also provides instructions for calculating the PIC/CPB share of
the ancillary income due each organization. Essentially, the program producer may
retain all Net Proceeds up to the amount the producer contributed to the program before
being required to pay PIC/CPB (distributed equally) their share of ancillary income
earned from each production.

After producers have recouped their contribution to the program, PIC must require each
program producer to pay the PIC/CPB share annually from the date CPB funding was
committed to the program through the end of the fifteenth consecutive year (“Revenue
Sharing Period”). Paragraph 13c of the grant agreement further provided that PIC can
retain up to $250,000 of CPB’s share of the “the PIC/CPB share,” if within fifteen years
from the date of the CPB production agreement (the Retention Period), the Retained
CPB Share has been used for programming. If not used within this time, PIC is required
to pay CPB its share with interest compounded annually at a rate of 10 percent from the
date of receipt by PIC.




                                          15
   The Retained CPB Share

While PIC’s records do not accurately reflect the annual earnings and expenses
attributable to ancillary income, its records dating back to 1998 showed that as of
February 2013, PIC had gross ancillary revenues of $362,199 from the sale of DVD’s,
VHS tapes, and broadcast licensing fees, as well as amounts received from producers.
PIC’s records also showed that it had incurred expenses of $168,613 attributable to the
DVD and tape sales, during the same time period. These expenses included
preparation of the film in DVD and VHS format, printing labels, as well as shipping and
handling, etc. In total, PIC had accumulated $193,586 of net income from the exercise
of ancillary rights ($362,199 - $168,613). The grant agreement provides the net income
is to be distributed equally between CPB and PIC, and that PIC is not required to make
any payments to CPB of CPB’s portion of the PIC/CPB Share from the first $250,000 of
the shared net proceeds if PIC uses these funds for future public television
productions. Amounts earned in excess of $250,000 each year must be shared
equally, with CPB’s share being remitted to CPB no later than the final financial report
for the fiscal year in which the revenue was generated.

Our review of PIC’s records indicates that no more than $250,000 was earned in any
year. As a result, the $193,586 of ancillary income should be split equally between CPB
and PIC. The grant agreements allow PIC to use the retained CPB share of the funds,
totaling $96,793 ($193,586 ÷ 2) and not pay CPB these funds if within fifteen years from
the date of the grant agreement the CPB share is committed for programming. Since,
the initial amount of ancillary income was earned in 1998, PIC has until this year, 2013,
to commit the ancillary income earned in 1998, as well as the interest earned on this
CPB retained share. If not so committed, PIC needs to remit these funds to CPB with
10 percent interest compounded annually from the time PIC received this income in
1998.

   Calculating Interest Earned on the Retained CPB Share

We also found that PIC did not calculate, maintain record of, or report the interest
earned on CPB’s share of ancillary income. Based on the mean U.S. historical interest
rates, we estimate that $17,500 of interest was earned by PIC from 1998 to 2012 on the
$96,793 of retained CPB share. As a result, at the time of our review, we estimate that
the total retained CPB share including interest being held by PIC is $114,293 ($96,793
+ $17,500). This amount needs to be reported to CPB and used in accordance with the
terms of the grant agreement or returned to CPB.

   Reporting Ancillary Income

Discussions with CPB personnel disclosed that they did not know if PIC reported any
ancillary income to CPB. Discussions with PIC personnel disclosed that former
employees handled ancillary income, and they left the organization without properly
training the remaining staff what was necessary to complete this task. As a result, they
had no institutional knowledge regarding whether ancillary income had been reported to



                                           16
CPB, producers reported ancillary income to PIC, or PIC requested producers to report
ancillary income.

The current Executive Director explained that she assumed her position just before the
audit started, and shortly thereafter she began sending letters to producers requesting
their ancillary income reports. She also provided us with the files for about 20
producers containing some form of ancillary income information. For example, eight of
the folders contained letters from PIC dated in 2013 requesting that the producers
report ancillary income to PIC. Eight other files contained letters from producers, dated
in 2008, reporting that they had received no ancillary income. Additionally, five
producers reported a total of $13,131, as follows.

                                                                            Ancillary Income
                                                                              Reported by
                    Production Titles                 Year Reported            Producer
    Sacred Vessels                                         2008                  $2,010
    Na Kamalei: The Men of Hula                           2008                      18
    Unnatural Causes: Is Inequality Making Us Sick?       2012                    4,128
    King Kamehameha                                       2009                     163
    Insular Empire: America in the Mariana Islands        2004                    2,794
    Insular Empire: America in the Mariana Islands        2008                    4,018
    Total Ancillary Income Reported                                              $13,131

In total, 13 producers reported either they had no ancillary income or reported ancillary
income in the past. PIC personnel disclosed they believed their records for the
$193,586 of ancillary income included not only DVD and VHS sales but also the
ancillary income reported by producers. However, our review was only able to confirm
the $4,128 of the $13,131 shown above was included in PIC records. The remaining
$9,003 should be added to PIC’s ancillary income calculations and CPB’s share of this
amount included in the retained CPB share. In any event, PIC records of ancillary
income reported to CPB and requests for ancillary income information from producers
were sporadic, and did not satisfy the CPB grant agreement requirements that PIC and
producers report annually, even when no ancillary income was received in a particular
year.

Section V paragraph 13d of the FY 2012, as well as prior year production agreements
require that:

        Each year . . . PIC shall provide to CPB a written report covering revenues
        generated from the exercise of Subsidiary or Ancillary Rights4 for each
        program during the previous twelve-month period . . . (“PIC’s Annual
        Report”). This reporting obligation . . . shall continue until the end of the
        16th consecutive year following the Initial National Public Television
        Release of the Program…. PIC must satisfy its reporting requirements

4
  The grant agreement between CPB and PIC defines Subsidiary or Ancillary Rights as synonymous
terms.


                                                 17
      even in a year in which there are no Gross Proceeds from the exercise of
      Subsidiary or Ancillary Rights by reporting zero(0) Gross Proceeds.

      For purposes of preparing the Annual Report, PIC shall contractually
      require that each Program Producer report and fully disclose to PIC: (a)
      the date and amount of all Gross Revenues received from the exercise of
      Subsidiary or Ancillary Rights in a Program . . . ; (b) the amount and
      nature of each direct cost deducted from the Gross proceeds to calculate
      Net proceeds; (c) the amount and nature of any recoupment by the
      Program Producer; (d) the cumulative total of all Net Proceeds received to
      date; and (e) the amount distributed to each entity entitled to share in the
      Net Proceeds.

PIC did not ensure that program producers reported ancillary income, even zero
amounts, to satisfy CPB grant agreement requirements. PIC agreements with program
producers state that, “The parties agree that [producers] shall report to PIC annually …
any [ancillary income] share….failure to submit the annual report …shall result in
disqualification from future funding …by PIC.” Our review of 10 contracts that PIC
executed with program producers disclosed that two (one from FY 2011 and a second
from FY 2012) did not contain required the PIC/CPB Revenue Sharing clause.

      Recommendations

4) We recommend that CPB ensure that PIC:

   a) Requires program producers to report ancillary income information as required
      by Section V of the CPB production grant agreement. This effort should include
      requiring program producers that completed programs within the past fifteen
      years to update ancillary income information for past years. Producers who do
      not report ancillary income should be disqualified by PIC from receiving future
      CPB grant funds.
   b) Reports ancillary income to CPB annually, as well as the interest earned on
      CPB’s share of ancillary income, as required by the grant agreement terms.
   c) Pays CPB, each year the applicable portion of the retained CPB share of
      ancillary income, totaling $114,293, with interest compounded annually at a rate
      of 10 percent from the date of receipt, if within fifteen years from the date of the
      CPB production agreement the retained CPB Share has not been used for
      programming.
   d) Includes the PIC/CPB Revenue Sharing clause in all future grant agreements with
      program producers as required by Section V paragraph 13 of the FYs 2011 and
      2012 production agreements.
   e) Adds CPB’s share of the $9,003 of ancillary income not included in PIC’s records
      to the ancillary income calculation.




                                           18
       PIC’s Response

In its response, PIC agreed that it has been negligent in reporting ancillary or subsidiary
income to CPB. Since former employees who handled this task left the organization
without properly training others, PIC will conduct a review of its records and procedures
and take steps to remedy this problem. PIC will also consult with counsel to develop
written processes to account for ancillary and subsidiary income.

PIC acknowledged that of the ten contracts that were examined during the audit review,
two contracts did not contain the required PIC/CPB Revenue Sharing clause. PIC will
amend one of these contracts to include this language, but PIC will not be able to
amend the other contract since it has already closed. PIC will ensure that this clause is
contained in all future contracts as required by CPB.

       OIG Review and Comments

Based on PIC’s response Recommendations 4a – 4e are considered resolved pending
CPB’s acceptance of PIC’s proposed corrective actions.


Grant Accounting

Our review of FYs 2011-2012 grant accounting found that PIC over-reported FY 2011
costs by $3,348 and did not de-obligate unused FY 2012 funds of $24,117. As a result,
we questioned $3,348 in costs reported in excess of the accounting records and identified
$24,117 in funds put to better use for unused funds not de-obligated.

   Year-end Accruals

As of September 30, 2011, PIC claimed $104,376 under its FY 2011 operations grant for
year-end accruals that were to be paid in the future after the products and services
ordered were provided and billed to PIC. Our review, as of September 30, 2012, disclosed
that PIC incurred, i.e., was billed and paid, only $101,028 for these expenses. As a result,
we questioned the difference of $3,348.

Section IV paragraph 7 of the FY 2012 and 2011 CPB production agreements provided
that, “… all CPB funding provided to PIC under this agreement is provided on a cost-
reimbursement basis only, and that PIC shall charge CPB only for costs incurred in the
performance of this agreement ….”

   Unspent Grant Funds

As of September 30, 2012, PIC incurred expenses totaling $662,863 under the FY 2012
operations grant. Since the amount incurred was $24,117 less than the $686,980
approved budget for this grant, CPB needs to de-obligate the $24,117 not used by PIC.
Details are provided in Exhibit F.



                                            19
Section III,10, of the FY 2012 and 2011 CPB production agreements provided that, “PIC
agrees to repay to CPB, upon request, at the conclusion of CPB’s audit of PIC’s final
financial accounting, any unexpended amounts and any amounts reasonably determined
by CPB to have been expended in a manner not in conformity with this Agreement.”

        Recommendations

5) We recommend that CPB officials:

   a)   Require PIC to repay CPB the $3,348 claimed but not incurred under the FY
        2011 operations grant.
   b)   Deobligate the $24,117 not used by PIC under the FY 2012 operations grant.

        PIC’s Response

PIC’s response agreed that it did claim $104,376 in year-end accruals for FY 2011
Operations that were to be paid in the future after the products and services ordered
were provided and billed to PIC. Although PIC only paid $101,028 as of the end of
September 30, 2012, its response indicated that the remaining $3,348 was spent during
the next fiscal year. Since the funds were spent on expenses that fulfilled the purpose
of PIC’s contract with CPB, PIC requested CPB to make a no-cost extension to the term
of this contract.

In its financial report to CPB, PIC did reflect year-to-date actuals for FY 2012
Operations that were $24,117 less than the approved budget of $686,980. CPB has
since amended PIC’s contract to reflect this new budget.


        OIG Review and Comments

Based on PIC’s response we consider Recommendation 5a unresolved pending CPB’s
management decision. Based on CPB’s deobligation of unspent funds we consider
Recommendation 5b resolved and closed.




                                          20
                                                                        Exhibit A

                          SCOPE AND METHODOLOGY
We conducted our audit in accordance with Government Auditing Standards (GAS) for
financial audits to determine the accuracy of costs reported to CPB, that grant funds were
spent in accordance with CPB grant agreement terms, and that PIC complied with
applicable provisions of the Public Broadcasting Act. We performed our audit field work
during the period March through June 2013.

The scope of the audit included tests of the costs claimed by PIC on active CPB
production and operations grants during the period October 1, 2009 – September 30,
2012. Final and interim reports submitted to CPB as of September 30, 2012 are
provided in Exhibits B through F.

In conducting our audit, we reviewed CPB’s grant files and discussed the award and
administration of the grants with CPB officials from the offices of Diversity and
Innovation, Business Affairs, and Television and Digital Video Content. At PIC, we
discussed the agreements with financial, production, and management officials. We
also reconciled the financial data maintained by PIC in its accounting records by grant
to the expenses it reported to CPB.

We tested the accuracy of grant expenditures that PIC claimed by performing financial
reconciliations and comparisons to underlying accounting records and the audited
financial statements to verify transactions recorded in the general ledger and reported to
CPB on payment requests. We also evaluated compliance with the grant agreement
terms, in part, by testing a judgmental sample of 77 expenditures for the grants
reviewed, valued at $453,600, to supporting documentation maintained by PIC. The
transactions tested included a variety of expenditure types such as, payroll, travel,
producer contracts, and consulting fees. We also judgmentally selected ten producer
contracts funded in FYs 2010, 2011, and 2012 to review contract terms and conditions.
We reviewed documents available to the public under the Public Broadcasting Act.

We gained an understanding of the internal controls over the preparation of the grant
reports, cash receipts, and payment authorizations to plan our substantive testing.
Further, to obtain reasonable assurance that financial reports submitted to CPB were
free of material misstatements, we performed tests of compliance with certain
provisions of law and grant agreement requirements, when noncompliance could have a
direct and material effect on the grant report amounts. To assist in our audit planning
and assure ourselves that we could rely on the work performed by PIC’s independent
public accountant (IPA), we discussed and reviewed the IPA’s internal control and fraud
risk assessment working papers, as well as, its financial statement work.




                                            21
                                                                      Exhibit B

                     Schedule of CPB Payments to PIC
                    October 1, 2009 – September 30, 2012

   Payment Date           Operations        Production       Total

FY 2009 Grant:
 1/22/2010                       $23,500                             $23,500
10/22/2009                                       $122,351            122,351
  5/7/2010                                          7,893              7,893
11/18/2010                                         58,486             58,486

       Sub-total                 $23,500         $188,730        $212,230

FY 2010 Grant:
  1/4/2010                       235,000                             235,000
  3/3/2010                       265,000                             265,000
11/22/2010                        55,000                              55,000
 2/26/2010                                        240,000            240,000
 5/14/2010                                         26,057             26,057
 12/9/2010                                        197,848            197,848
 6/23/2011                                        322,730            322,730
 6/29/2012                                        167,910            167,910

       Sub-total                $555,000         $954,545      $1,509,545

FY 2011 Grant:
  1/4/2011                       430,200          195,750            625,950
 6/23/2011                       215,100          533,300            748,400
 9/23/2011                                         10,000             10,000
12/22/2011                                         15,195             15,195
 3/21/2012                        71,700            9,804             81,504
 6/29/2012                                         18,951             18,951

       Sub-total                $717,000         $783,000      $1,500,000

FY 2012 Grant:
 1/20/2012                       412,188          243,141            655,329
 3/23/2012                                          9,069              9,069
 6/29/2012                                        110,000            110,000
  9/4/2012                       206,094          123,040            329,134

       Sub-total                $618,282         $485,250      $1,103,532



      Grand Total             $1,913,782        $2,411,525     $4,325,307




                                       22
                                                                              Exhibit C

                          FY 2010 Production Grant No.13216
                      Interim Financial Report Submitted to CPB
                                 As of September 30, 2012

                                                                         $ Over    Percent
                                                Approved                (Under)      of
                                                 Budget      Actual     Budget     Budget

Revenue:
CPB Grant                                         $954,545   $954,545        $0       100%


Expenses:
MEDIA FUND & EXECUTIVE PRODUCTIONS                 727,670    727,670        $0       100%


NATIONAL BROADCAST
Marketing & Promotions                              95,000     94,279      (721)       99%
Cyber Insurance                                      5,000      4,757      (243)       95%
Knapp Carriage Service/Nielsen                       5,660      5,660         0       100%
Subtotal                                           105,660    104,696      (964)       99%


TALENT DEVELOPMENT                                  43,069     43,069         0       100%


AUDIENCE DEVELOPMENT                                55,000     55,975       975       102%


PROGRAM ADMINISTRATION
Content Coordinator                                 14,646     14,646         0       100%
Media Fund Administration                            8,500      8,489       (11)      100%
Subtotal                                            23,146     23,135       (11)      100%


Total Production Expenses                         $954,545   $954,545         0       100%




                                           23
                                                                                           Exhibit D

                             FY 2010 Operations Grant No.13215
                           Final Financial Report Submitted to CPB
                                     As of September 30, 2010

                                                                                  $ Over      Percent
                                                         Approved                (Under)        of
                                                          Budget      Actual     Budget       Budget
REVENUE (CPB Grant)
CPB made the Final Payment of $55,000 during
November 2010                                              $555,000   $500,000   ($55,000)        90%

EXPENSES
Personnel
Salaries, Fringe Benefits & Taxes                           314,602    314,662          60       100%
Subtotal                                                    314,602    314,662          60       100%

PROFESSIONAL SERVICES
Auditor                                                       9,080      9,700         620       107%
CPA/Payroll                                                   6,150      6,226          76       101%
Legal                                                         3,300      3,275        (25)        99%
Insurance                                                     3,050      2,895       (155)        95%
Other Contracted & Professional Services
   Web Development                                           36,000     35,555       (445)        99%
   Technology Management                                      1,500      1,571          71       105%
    Planning Other                                            3,300      3,229        (71)        98%
Subtotal Other Contracted & Professional Services            40,800     40,355       (445)        99%
Subtotal                                                     62,380     62,451          71       100%

OFFICE EXPENSES
Rent/Parking                                                 70,400     70,727         327       100%
Telephone/Email                                               8,000      7,826       (174)        98%
Office Supplies                                               4,600      4,504        (96)        98%
Postage/Messenger                                             3,000      3,001            1      100%
Copying/Printing/Binding                                      1,240      1,236          (4)      100%
Business Expense                                             21,368     21,943         575       103%
Subtotal                                                    108,608    109,237         629       101%

EQUIPMENT
Equipment                                                    14,000     13,601       (399)        97%
Maintenance                                                   1,410      1,408         (2)       100%
Subtotal                                                     15,410     15,009       (401)        97%

TRAVEL
Staff Travel                                                 39,000     38,816       (184)       100%
Board Travel                                                 15,000     14,825       (175)        99%
Subtotal                                                     54,000     53,641       (359)        99%

Total Production Expenses                                  $555,000   $555,000           0       100%




                                                    24
                                                                                              Exhibit E

                  FY 2011 Operations & Production Grant No.13575
                     Interim Financial Report Submitted to CPB
                                     As of September 30, 2012

                                                                                   $ Over      Percent
                                                         Approved                 (Under)        of
                                                          Budget      Actual      Budget       Budget
REVENUE
   Operations                                             $717,000     $717,000         $0        100%
   Productions                                              783,000     783,000
Total CPB Grant Revenue                                   1,500,000   1,500,000          0        100%

EXPENSES - OPERATIONS
Personnel
Salaries, Fringe Benefits & Taxes                           416,407    405,525     (10,882)        97%
Subtotal                                                    416,407    405,525     (10,882)        97%

PROFESSIONAL SERVICES
Auditor                                                       9,700     10,575         875        109%
CPA/Payroll                                                   8,135      8,948         813        110%
Legal                                                         4,000      4,400         400        110%
Insurance                                                     3,050      3,100          50        102%
Other Contracted & Professional Services
   Web Development                                           20,000     22,000       2,000        110%
   Technology Management                                      2,000      1,822       (178)         91%
    Planning Other                                           40,013     43,768       3,755        109%
Subtotal Other Contracted & Professional Services            62,013     67,590       5,577        109%
Subtotal                                                     86,898     94,613       7,715        109%

OFFICE EXPENSES
Rent/Parking                                                 79,195     75,118      (4,077)        95%
Telephone/Email                                               9,000      8,650        (350)        96%
Office Supplies                                               5,000      5,500          500       110%
Postage/Messenger                                             4,000      4,312          312       108%
Copying/Printing/Binding                                      3,500      3,171        (329)        91%
Business Expense                                             30,000     33,000        3,000       110%
Subtotal                                                    130,695    129,751        (944)        99%

EQUIPMENT
Equipment Purchase/Lease                                      7,000      7,168         168        102%
Maintenance                                                   3,000      2,974         (26)        99%
Subtotal                                                     10,000     10,142         142        101%

TRAVEL
Staff Travel                                                 40,000     42,503       2,503        106%
Board Travel                                                 18,000     17,966         (35)       100%
Subtotal                                                     58,000     60,469       2,468        104%

MEDIA FUND ADMINISTRATION                                    15,000     16,500       1,500        110%

Total Operating Expenses                                   $717,000   $717,000           0        100%




                                                    25
                                                                 Exhibit E (continued)

                  FY 2011 Operations & Production Grant No.13575
                     Interim Financial Report Submitted to CPB
                                  As of September 30, 2012

                                                                        $ Over      Percent
                                              Approved                 (Under)        of
                                               Budget       Actual     Budget       Budget
EXPENSES - PRODUCTION
MEDIA FUND & EXECUTIVE PRODUCTIONS
Media Fund (Production & Completion)             $485,650   $345,000   ($140,650)       71%
Online                                             25,000     25,000           0       100%
Discretionary                                      78,300     38,950     (39,350)       50%
Subtotal                                          588,950    408,950    (180,000)       69%


NATIONAL BROADCAST
Marketing & Promotions                             75,000     74,357        (643)       99%
Cyber Insurance                                     5,000      4,945         (55)       99%
Knapp Carriage Service/ Nielsen                     6,050      6,050           0       100%
Post-Production                                    10,000     10,106          106      101%
Subtotal                                           96,050     95,458        (592)       99%


TALENT DEVELOPMENT                                 41,180     41,180           0       100%


AUDIENCE DEVELOPMENT                               56,820     47,203      (9,617)       83%


Total Production Expenses                        $783,000   $592,791   ($190,209)       76%




                                            26
                                                                                        Exhibit F

                    FY 2012 Operations & Production Grant No.14412
                       Interim Financial Report Submitted to CPB
                                    As of September 30, 2012

                                                                           $ Over       Percent
                                             Approved                     (Under)         of
                                              Budget         Actual       Budget        Budget
REVENUE
   Productions                                 $822,565       $485,251    ($337,314)        59%
   Operations                                   686,980        618,282      (68,698)        90%
TOTAL CPB GRANT REVENUE                       $1,509,545     $1,103,533   ($406,012)        73%


EXPENSES - PRODUCTION
Training Expenses                               $55,000        $40,468     ($14,532)        74%
Insurance Expense                                    4,500       2,550       (1,950)        57%
Outreach Expense                                    25,000      25,000              0      100%
Packaging                                           10,000        8,340      (1,660)        83%
Professional Services                                6,500        6,050        (450)        93%
Promotion                                           30,000      26,970       (3,030)        90%
Travel Expenses                                     20,000      10,844       (9,156)        54%

TOTAL PRODUCTION EXPENSES                      $151,000       $120,222     ($30,778)        80%

EXPENSES-PROGRAMMING
Licensing Agreements                           $671,565       $191,352    ($480,214)        28%

TOTAL PROGRAMMING EXPENSES                     $671,565       $191,352    ($480,214)        28%

EXPENSES - OPERATIONS
Salaries, Fringe Benefits & Taxes              $428,448       $403,635     ($24,813)        94%
Conferences, Meetings & Special Events              10,000      10,960          960        110%
Equipment Costs                                      4,500        4,766         266        106%
Insurance Expense                                    3,050         767       (2,283)        25%
Office Expense                                      17,500      19,230        1,730        110%
Office Lease & Storage                              78,000      77,760         (240)       100%
Panels/Readers                                       7,500        8,100         600        108%
Postage and Delivery                                 3,000        3,124         124        104%
Professional Services                               58,437      64,198        5,761        110%
Telephone/Fax                                        9,000        9,060          60        101%
Travel Expenses                                     67,545      61,263       (6,282)        91%
TOTAL OPERATING EXPENSES                       $686,980       $662,863     ($24,117)        96%




                                               27
                             Pacific Islanders in Communications
                               Response to Draft Audit Report


Complying with Grant Agreement Term Period
Committing Funds to Producers
PIC did commit funds to several projects after the grant term had expired. As stated in the draft
audit report, this decision was made by former management who thought it was best to commit
FY2011 production grant funds prior to committing FY2010 grant funds based on a conversation
she had with CPB in which she said that CPB had stated that PIC had to establish need for
FY2011.

Exhibit I shows the projects that could have used FY2010 funds, but used other fiscal year funds
instead based on the decision made by former management. This amount totals $431,500, which
is slightly less than the $436,355 in FY2010 funds that was committed after the grant term.

Furthermore, PIC would like to point out that in the last three payment request forms PIC
submitted to CPB with its FY2010 quarterly reports, PIC listed all projects that were awarded
with these funds and included a column that indicated the date the project was awarded funding.
Although several projects had award dates after the two-year commitment term, PIC did not
receive any indication that this violated the contract.

Since the funds were committed or spent on projects that fulfilled the purpose of PIC’s contract
with CPB, PIC would like to formally request from CPB a no-cost extension to the term of this
contract, which is an option CPB can take based on language in the contract:

       1. Term. The term of this Agreement shall commence on October 1, 2009 and
       shall end on September 30, 2012. Thereafter, at CPB’s option, the term may be
       extended for additional periods under the same terms and conditions as provided
       herein, or any amended terms and conditions agreed to by the parties.

Committing Funds to Production Related Expenses
Similar to committing funds to producers, PIC did expend funds associated with programming
(such as national broadcast, talent and audience development, and program administration) after
the grant term had expired. Again, this decision was made by former management who thought
it was best to expend FY2011 production grant funds prior to expending FY2010 grant funds
based on a conversation she had with CPB in which she said that CPB had stated that PIC had to
establish need for FY2011.

PIC has included two exhibits to help illustrate this point. Exhibit II shows the FY2010 7th and
8th quarter financial report that reflects year-to-date actuals made between October 1, 2009 and
September 30, 2011. Similarly, Exhibit III shows the FY2011 4th quarter financial report that
reflects year-to-date actuals made between October 1, 2010 and September 30, 2011. Expenses
that were paid using FY2011 funds that could have been paid using FY2010 funds include:
$45,602 in Marketing & Promotions; $39,249 in Talent Development; and $23,000 in Audience
Development (although the amount actually spent in FY2011 was $27,845, there was only a
balance remaining of $23,000 in FY2010). This amount totals $107,851, which is slightly less
than the $110,972 listed in the draft audit report.

Similar to the funds committed to producers, since the funds were spent on expenses for the line
items in which it was intended that fulfilled the purpose of PIC’s contract with CPB, PIC would
like to formally request from CPB a no-cost extension to the term of this contract, which is an
option CPB can take based on language in the contract:

       1. Term. The term of this Agreement shall commence on October 1, 2009 and
       shall end on September 30, 2012. Thereafter, at CPB’s option, the term may be
       extended for additional periods under the same terms and conditions as provided
       herein, or any amended terms and conditions agreed to by the parties.

Obtaining Final Reports from Producers and De-obligating Unused Funds
Submitting Final Reports
PIC recognizes that its sub-agreements with independent producers did not require independent
producers to submit their final financial reports to CPB or specified that final reports had to be
submitted to PIC within 180 calendar days following the initial airdate or distribution date of the
last episode of the season. Since CPB provides PIC with these sub-agreements to give to
independent producers, PIC requests that CPB amends the sub-agreements to include this
language.

Additionally, since it is unlikely that producers will provide CPB directly with a copy of their
final financial report even when contractually obligated, PIC requests that it be allowed to submit
these reports to CPB instead, which will also serve as notification to CPB of close-out of the
project.

De-obligating Unused Funds
PIC acknowledges that its staff was unaware that when the actual project costs were less than the
amount budgeted in the grant agreement, a proportion of the funds not used by the producers
needed to be returned to PIC. In the majority of cases in which a producer came in under-
budget, however, it was due to budget reductions necessitated by less funding secured than
expected rather than PIC funds not being used. In these circumstances, PIC should have
amended the contracts to reflect this new PIC-approved budget, a step that has now become part
of procedure.

Since the sample testing examined projects that have since closed, PIC would like to request that
it not attempt to amend these closed contracts to reflect the revised budgets, but to be diligent
about these amendments in moving forward.

Also, when a producer comes in under-budget, it would be helpful if CPB could provide a limit
to when a contract amendment needs to occur or when the funds would need to be returned (e.g.,
amounts more than $500) so that PIC does not need to take needless action for amounts deemed
immaterial by CPB.
PIC Cash Management Practices
Accumulating Cash Balances
During the time period reviewed, PIC agrees that it could have done a better job of predicting
projected expenses for the next quarter. However, since the audit review, PIC has been more
realistic in terms of projected expenses, and the CPB grant funds on-hand have decreased
drastically.

In terms of reporting procedures, PIC did follow the correct procedures for submitting payment
requests. From FY2010 to FY2012, PIC submitted payment request forms that included year-to-
date actuals and projected expenses. This amount was compared to the amount of cash PIC had
remaining from the previous quarter, which was then subtracted from the next PIC payment
request. Although payment requests were submitted for each quarter, PIC never received any
indication from CPB that there was anything wrong with the way PIC was requesting funds or
that the expenses projected for the next quarter were too high.

PIC would also like to comment on one of the difficulties about adhering to this payment
schedule and procedure. Based on the quarterly reporting schedule, PIC needs to submit its
quarterly report by the end of the month following the reporting term. It then takes CPB
anywhere from a month to two months to read the reports and process payments. This means
that at least two months have passed within the quarter before PIC receives its payment for that
quarter. This results in PIC delaying payments to vendors and producers until it receives its
payments from CPB.

Lastly, PIC would like to mention that with any type of media project, delays are unavoidable
and project deliverable dates are completely dependent on each individual producer. Although
PIC tries its best to keep producers on schedule, there have been instances in which timelines
have been extended to a great degree, which leads to incorrectly projected expenses by PIC.

Earning Interest on Excessive Cash Balances
PIC will move its FY2011 and FY2012 cash on-hand to an interest bearing account.

Reporting Ancillary Income and Interest Income
PIC has been negligent in reporting ancillary or subsidiary income to CPB. Since former
employees who handled this task left the organization without properly training others, PIC will
conduct a review of its records and procedures and take the steps to remedy this problem. PIC
will also consult with counsel to develop written processes to account for ancillary and
subsidiary income.

Reporting Ancillary Income
PIC acknowledges that of the ten contracts that were examined during the audit review, two
contracts did not contain the required PIC/CPB Revenue Sharing clause. PIC will amend one of
these contracts to include this language, but PIC will not be able to amend the other contract
since it has already closed. PIC will ensure that this clause is contained in all future contracts as
required by CPB.
Grant Accounting
Year-end Accruals
PIC did claim $104,376 in year-end accruals for FY2011 Operations that were to be paid in the
future after the products and services ordered were provided and billed to PIC. Although PIC
only paid $101,028 as of the end of September 30, 2012, the remaining $3,348 was spent during
the next fiscal year. Since the funds were spent on expenses that fulfilled the purpose of PIC’s
contract with CPB, PIC would like to formally request from CPB a no-cost extension to the term
of this contract.

Unspent Grant Funds
In its financial report to CPB, PIC did reflect year-to-date actuals for FY2012 Operations that
were $24,117 less than the approved budget of $686,980. CPB has since amended PIC’s
contract to reflect this new budget.
                          Exhibit I

                                               Date Contract
                                     Amount     Signed with
Production Title                  Committed        Producer
Black Grace                          $10,000         3/24/11
Black Grace                          $10,000         5/15/11
Hula Girls                           $10,000         8/15/11
Rolling Down Like Pele                  $500         8/23/11
Malaga                                  $500          9/9/11
Stones                                  $500         9/15/11
Jake Shimabukuro                    $150,000         9/16/11
Mystery of Easter Island            $100,000         9/20/11
Mystery of Easter Island            $150,000         9/20/11
                      Total      $431,500.00
                              Exhibit II


PACIFIC ISLANDERS IN COMMUNICATIONS
CPB CONTRACT NO. 13216
FY2010 PRODUCTION REPORT
SEVENTH AND EIGHTH QUARTERS (OCTOBER 1, 2009 TO SEPTEMBER 30, 2011)


                                     CPB 2010 Production Expenses Fund
                                 YTD        Approved       $ over     % of
                                 Actual       Budget      Budget     Budget
EXPENSES
  MEDIA FUND & EXECUTIVE
  PRODUCTIONS                    $230,163      $727,670   -$497,507   32%

 NATIONAL BROADCAST
 Marketing & Promotions             $1,590      $75,000    -$73,410    2%
 Cyber Insurance                    $4,757       $5,000       -$243   95%

 Knapp Carriage Svc/Nielsen         $5,660       $5,660          $0   100%
 Subtotal                          $12,006      $85,660    -$73,654   14%

 TALENT DEVELOPMENT                 $9,833      $88,069    -$78,236   11%

 AUDIENCE DEVELOPMENT               $7,000      $30,000    -$23,000   23%

 PROGRAM ADMINISTRATION
 Content Coordinator               $14,646      $14,646         $0    100%
 Media Fund Administration          $8,456       $8,500       -$44     99%
 Subtotal                          $23,102      $23,146       -$44    100%

TOTAL PRODUCTION EXPENSES        $282,105      $954,545   -$672,440   30%
                                Exhibit III


PACIFIC ISLANDERS IN COMMUNICATIONS
CPB CONTRACT NO. 13575
FY2011 QUARTER 4 FINANCIAL REPORT
OCTOBER 1, 2010 THROUGH SEPTEMBER 30, 2011


                                                        CPB 2011 Expenses Fund

                                          YTD            Approved    $ over       % of
                                          Actual          Budget     Budget      Budget

EXPENSES - PRODUCTIONS
  MEDIA FUND & EXEC PRODUCTIONS
  Media Fund (Production & Completion)   $100,000         $485,650   -$385,650    21%
  Online                                  $10,500          $25,000    -$14,500    42%
  Discretionary                           $20,000          $78,300    -$58,300    26%
  Subtotal                               $130,500         $588,950   -$458,450    22%

  NATIONAL BROADCAST
  Marketing & Promotions                      $45,602      $75,000    -$29,398    61%
  Cyber Insurance                              $4,695       $5,000       -$305    94%
  Knapp Carriage Svc/Nielsen                   $6,050       $6,050          $0   100%
  Post-Production                              $1,571      $10,000     -$8,429    16%
  Subtotal                                    $57,918      $96,050    -$38,132   60%

  TALENT DEVELOPMENT                          $39,249      $68,000    -$28,751    58%

  AUDIENCE DEVELOPMENT                        $27,845      $30,000     -$2,155    93%

TOTAL PRODUCTIONS EXPENSES               $255,512         $783,000   -$527,488    33%
